                                  CLOSEOUT FOR M91120047




     successful NSF minority graduate fellowship application was-inconsistent with that on his
                                                          admission application. The subject attended
    o             r a brief period and then transferred t     o The subject had indicated he was a
     " ~ l a c z not
                 , of Hispanic Origin" on the NSF application and that he was an "AsianIPacific
    Islander" on that
                      M
    by the director o tha
                                            admission application. The program director had been told
                                           chool's Fellowship Office that the subject had orally
     indicated that he was of Egyptian descent. It was questioned whether, as an Egyptian, he
     would be classified as Black. After therFellowship Office director brought the AskidPacific
    Islander identification to his attention, the subject changed it to "Black, not of Hispanic
     Origin," and provided a written statement that he was originally from t h e m

         When OIG asked the subject about these inconsistencies, he stated that the "AsianIPacific
    Islander" designation was an unintentional error which he had since corrected. He stated that
    his roots were in t h e m territory that was subsequently divided into
    He had been told that his grandmother was probably f r o m t h e capital of 1-
    He provided copies of several documen'ts to show that he has consistently claimed African-
    American status and also cited memberhip in a professional organization for Blacks. He
    stated that he considered himself to be an African-American. We note that, according to the
    classification of ethnic groups obtained by OIG from the Bureau of the Census, a person who
    is partially of e x t r a c t i o n is considered to be Black, not of Hispanic origin.

        Therefore, OIG determined that there was not enough evidence to warrant pursuing this
    allegation further. This case is closed without a finding of misconduct.




'



    Concurrence:



    Donald E. Buzzelli
    Senior Scientist, Office of Oversight                  Assistant Inspector General for Oversight



    Montgomery K. Fisher                  I
    Deputy Counsel to the Inspector General

    cc:     Assistant Inspector General for Oversight
            Inspector General
